Depktment of Health and Human Services 

           OFFICE OF 

   INSPECTOR GENERAL 





  CARRIER MAINTENANCE OF 

MEDICARE PROVIDER NUMBERS 





                Richard P. Kusserow
                INSPECTOR GENERAL
                   OEI-06-89-00870
           ..


                   EXECUTIVE                         SUMMARY
PURPOSE

This report describesmaintenanceefforts by Medicare carriers to I) ensurethe accuracy of
provider information and 2) identify and restrict payments to providers who have lost the legal
authority to practice.


BACKGROUND

Medicare carriers assignprovider numhcrs to q&cd        providers of Part B sewices who furnish
servicesor supplies to Medicare beneficiaries. The numbers arc usedfor processing both
assignedand nonassignedclaims. Additionally, the numbers are usedin establishing Medicare
pricing and utikation profiles. If the provider of servicesdoes not have a provider number,
payment may not bc madc.for services. To obtain a provider number from a caxzier,providers
need to complete the carrier’s application form and met criteria specified by Medicare
mgulations.


METHODOLOGY

This inspection consisted of three phasesin addition to a review of relevant Health Care
Fiiancing Administration (HCFA) policies and Medicare laws and discussionswith HCFA staff.
Fit, we contacted 38 car&s to discussmabtcnance issues. Carriers completed mailout
questionnaires followed by telephone or onsitc interviews. Second,we mailed questionnairesto
professional licensing authorities in each Statewhich am responsible for licensing physicians
(121 respondents). Finally, we conducted computer matchesbetweencarriers and licensing
authorities at four carriers to determine how well carriers deactivate numbers belonging to
providers not legally authorized to pm&c. The selection of the four carriers for computer
matching was purposive. We s~lcctcdfour carriers in Stateswith large physician populations
and whose professional licensing authority for physicians agrcui to produce a computer file of
providers who wcrc no longer legally authorized to practice their profession.


FINDINGS

HCFA's &&on       to carriers is inadequate.

>	    We bciicve inadequate direction by HCFA hasrtsuitcd in weaknessesin carrier controls to
      maintain the integrity of Medicam carrier provider numbers. We beiieve this constitutes a
      rnatmial internal control wcakncss within the meaning of the Federal Managers’ Fiiancial
      Integrity Act and should be reported to the Sccrntary along with plans for corrective action.



                                                 i
Weaknessesexist in canier contds to maintain Medkareprovider numbers.

>     Most cankrs‘donot systematically updateprovider Eles.

>     Communications benvetn carriers and professional licensing authorities are weak.

l	    Many carriers do not haveadequatecontrols to identify and deactivate provider numbers
      belonging to providers who have lost the legal authority to practice.

l	   Many providers who have lost the legal authority to practice still have active provider
     numbers which they may use and, in somecasts, are using to bill Medicare services.

>	   Inaccurate or missing information in somecarrier ffies may hamper effective useof State
     Iicensing authority information.

Improvemhs     through various ruiminisbrrtivc actions orpmgrams are possible.

>	   Carriers can reduce the number of active provider numbers,reduce Medicam’s
     vulnerability to abuse,and saveadnk&mdve costsby periodically deactivating provider
     numbers with no billing history.

>	   Computer matching with licensing authorities could help many carriers identify providers
     not legally authorized to practice.

     Carrier efforts under HCFA’s physician identification and registration program (UPIN)
     have improved the accuracyof provider number records of physicians.


RECOMMENDATIONS

The HCFA should require carriers to:

>    update plwidcrrccoKls pcliodically.

l    deactivate aUprovider numberswithout current billing history.

l	   estabiish adequatecontrols to ensureproviders not legaily authorized to practice are
     identified and their provider numbersdeactivated. As a part of thesecontrols, carriers
     should:

                negotiate with State licensing authorities to obtain license and registration
                information at a minimum cost to the Medicare program.




                                                 ii
                  assessthe feasibility of computer matcheswith Statelicensing authorities and
                  perform suchmatchesroutinely, if practicaL

                  maintain the license or certification number of providers in its provider file.

                  develop computer data entry edits for license numbersto ensureuniformity and
                  consistencywith the licensing authority’s method of recording license numbers.

The HCFA should:

>	      evaluatecarrier provider number controls establishedaboveasa part of its regular carrier
        Contractor PerformanceEvaluation Program

l       negotiate with Statelicensing authorities, which carriers report to be uncooperative,to
        obtain license and registration information at a minimum cost to the Medicare program.


HCF’A COMMENTS AND OIG RESPONSE

The HCFA acknowledgesthe needto improve its instructions to Medicare carriers regarding the
maintenanceof provider numbers. However, HCFA doesnot concur with all OIG
recommendations. Additionally, HCFA doesnot believe our fmdings constitute a material
internal control weakness.

        The OIG continues to believe a material internal control weakxess exists and
    .   each recommendationshould be implemented. IdentQied weaknessesin carrier
        maintenance efforts and HCFA’s direction meet several of the criteria upon
        which a materiai weakness designation is determined. In accoraknce with the
        Fe&& Managers’ Financial Integrity Act, the HCFA should report this as a
        tnaterial internal con& weakness through the SecreraTyto the President
        and Congress. A detailed discussion of the material weakness riesignation can
        be found in Appendix B. (SeeAppendix B also for a more complete discussion
        of HCFA’s comments and the OIG’s response. Appendix C includes the@1 text
        of HCFA’s comments.)




                                                   ...
                                                   ul
                       TABLE OF CONTENTS 


EXECUTIVESUMMARY 


INTRODUCTION .....................................................................................*................1 


      Purpose ............................................................................................................ .... 1 


      Background .........................................................................................................1 


      Methodology ................................................................................................-......4 

                                                                                                                         8

FINDINGS ..................................................................................................................

      HCFA’s direction to cad&s is inadequate ........................................................8 


      Weaknessesexist in cakier contds to main&in 

      Medicam pmvidkr numbers ................................................................................8 


                 Lack of f?le updating ................................................................................8 


                 Weak communication with State licensing authorities.............................9 


                 Inadequatecontrols to identify unautbrid                             providczs.........................12 


                 UnauthM               providers with active numbers......................................... 14 


                  In&curate or missing information in carrier records .....I......................15 


       Improvements thmugh va&ws administrative actions 

       orpmgmms m possible .................................................................................. 17 


                  Deactivating providers with no billing history ....................................... 17 


                  Computer matching with Statelicensing authoxities.............................. 18 


                  Carrier efforts and UPIN ........................................................................20 


RECOMMENDATIONS                                                                                                                22
                                        .........................................................................................

ENDNOTES .................................................................................................-..-.....---.24 

          --


APPENDIX A: Carrier Survey Respondents........................................................ A-l

APPENDIX B: Summary of HCFA’s Commentsand OIG’s Response.................B-l

APPENDIX C: HCFA Commentsto the Draft Report ..........................................C-l
                               INTRODUC’iION
PURPOSE

This report describesmaintenanceefforts by Medicare carriers to 1) ensurethe accuracyof
provider information and 2) identify and restrict paymentsto providers who have lost the legal
authority to practice.

Specific objectives were to:

1)   describe how carriers maintain the accuracyof provider information,

2) 	 determine whether Part B providers who lose legal authority to practice are identified by
     carriers, and

3) 	 determine the feasibility of routine computer matchesbetweenState licensing authorities
     and carriers to identify providers having no legal author@ to practice.

An upcoming report entitled “Carrier Assignment of Medicare Provider Numbers,” preparedin
conjunction with this inspection, describesand assesseshow carriers assignprovider numbers.


BACKGROUND

Medicare is a Federal program authorized by title XVIII of the Social Security Act (42 U.S.C.
1395). The program pays for much of the health care costsfat eligible personsage 65 or older
and certain individuals under 65 who are disabled or have chronic kidney disease. The Health
CareFinancing Administration (HCFA) administers the program through a network of
conuactors which processclaims, make payments,and provide various other servicesto
beneficiaries and providers.

Medicare consistsof two types of insurance,Part A and Part B. Part A covers servicesfurnished
primarily by hospitals, home health agencies,and skilled nursing facilities. Medicare Part B
typically coversphysicians’ care and various other medical servicesand supplies. Contractors
under Part A am referred to as intermediaries; those under Part B are called cambers.

Under Part B, cIaims are assignedor nonassigned. If a claim is assigned,the provider submits it
to the contractor for payment and agreesto acceptthe contractor’s determination of the allowed
charge. The beneficiary remains responsible for any coinsurance,which is the percentageof the
allowed charge for covered medical expensesa beneficiary pays, and the deductible, which is the
covered medical expensesa benefichry must pay before Medicare pays. If the claim is
nonassigned,the provider is required to submit the claim to the contractor, which pays the
btntfkary. The beneficiary then pays the provider and is responsible for the coinsurance



                                                1        .
 amount, any unmet deductible, noncoveredcharges,and any difference betweenthe provider’s
 actual charge (up to the maximum allowable actual charge)and the Medicare-allowed charge.

Carrier Prvvidkr Numbers

Under most situations, carriers require providers of Medicare servicesto submit information
sufficient for the carrier to assignthe provider a unique carrier identification number (hereafter
referred to as a provider number). &ricrs assignprovider numbersto qualified providers of
Medicare Part B reimbursablesetices or supplies.(SeeFigure 1.)


                                               FIGURE 1
                                          Provider Types
   Physkians
   Doctors of Medicine              Doctors of Osteopathy              Dentists
   Chiropractors                    optometrists                       Podiatrists
                      -
   Suppliers and Nonphysician    Pmctitlonen
   Physician Assistants             Certified Nurse Anesthetists       Nurse Midwives
   Xnical Psychologists             Nurse Practitioners                Physical Therapists
   Jccupational Therapists          Speech Therapists                  Audiologists
    ‘linical Social Workers         Durable Mediil Equipment           Clinical Labs
     nbulatofy Surgery Centers      Rehabilitation Centers             Ambulance
      agnostic Testing Centers      Independent Physiobgical Labs


     kkr numbersare usedfor processingboth assignedand nonassignedclaims. The number is
 . . usedin establishing Medicaxepricing and utihition profiles. If the provider of services
dti::; not have a provider number, payment may not be made for services. To obtain a provider
number tirn a carrier, providers need to complete the carrier’s application form and meet
critezia specified by Medicare regulations.

Through the provider number application processand maintenancepractices,carriers must
ensureproviders meet qualikadons specified by Medicare. Federal laws and regulations
governing the Medim program acknowledge the States’primary role in regulating many
prov ders. For example, the Medicare law requirescoveredphysician servicesbe renderedby
licenxd physi&ns who are legally authorized to practice” (Social Security Act, Section 1861)
by the State in which the servicesare rendered.

Although qualifications for other Medicare provider types (Figure 1) may include Stateliccnsure
or cetication, someproviders are required to meet additional education, work experience,staff,
or equipment needsin order to participate in the Medicare program (e.g., ambulancecompanies).
Additionally, someproviders require HCFA approval However, this is not to say every provider
type must meet specified criteria. Someproviders, such asdurable medical equipment @ME)
suppliers, generally do not have to meet any criteria except to possessa Social Security number
or an employer identification number.                                                         a.-


                                               2
A provider may legitimately have more than one provider number. Somecarriers give a
physician who practices in both a group and a so10practice a number for each. If a provider has
a practice in more than one reasonablechargelocality, carriers may assignthe provider different
numbersor mod&u-s to an existing number. Also, providers receive Werent numbersor
modifiers if practicing under different specialties. .

Groups or clinics composedof multiple physicians require special processing. Most carriers
assigngroups or clinics a provider number. Additionally, the cti(rr must be able to identify
eachphysician in the practice. Carriers accomplish this by assigning a number or modifier to
each physician regardlessof any other number(s) the physician may have. In the group practice
setting, the physician should list this number on the HCFA 1500claim form to show who
performed the service.

Federal Interest in Provider Quaiifications

The Federal governmentcontinues to show an interest in ensuring providers have adequate
qualifications. The Consolidated Omnibus Budget Reconciliation Act of 1985 mandateda
registry of physicians and the useof a unique practitioner identifier number (UPIN) to prevent
duplicate paymentsfor hospital-basedphysicians and interns under the Medicare program and to
more accurately track federally sanctionedpractitioners. This registry is monitored by HCFA.

Another database,the National Practitioner Data Bank, has beenfunded and recently began
o-on       to monitor State licensed health practitioners. This data bank maintains records of all
adverseactions (e.g., license revocation, malpractice) taken against medical providers and
entitimafter the opening of the databank. The databank was authorized by the Health Care
Quw Improvement Act of 1986 (P.L. 99460, title IV) and the Medicare and Medicaid Patient
and Program Protection Act of 1987 (P.L. 100-93, sectior~5). This databankis monitored by the
Public Health Service (PHS).

These two databasesprovide the Federal governmentwith addedtools to monitor providers.
However, the responsibility for ensuring Medicare providers meet licensing arid other
requirements specified by StateandFederal law rests ultimately with catriers.

State Licenszm and Ce@ication

Licensing and certifying providers axeprimarily Statefunctions. Individuals or entities must
meet Statecriteria to obtain and maintain a license or cert%cation. The Statesare responsible
for regulating the practice of those they have licensed or c&f&xi. They PIEalso responsible for
ensuring all providers meet standardsof professional competenceand personalintegrity
considered necessaryto protect the public.

The State license or ccrdficate demonstratesthe provider satisfiesthe State’sestablished
standardsin such areasaseducation, experience,and ethics. Once licensed or certified, the
provider must then comply with the State’sprescribedstandardsfor the practice of the profession
and any other specified criteria for maintaining a license or certification. Failure to meet these
kquirements may result in the Statesuspendingor restricting the license or certificate to provide


                                                 3

semices. When a provider losesthe legal authority to practice, no servicesof the provider art
covered by Medicare.

Prior OIG Study

An audit (A-04-87-02011) of physicians by the Office of Inspector Generalin 1987 found
managementcontrols at the Florida carrier were inadequateto prevent continued participation by
and reimbursementto physicians who had lost their authority to practice asa result of State
actions. Becauseof this inadequacy.the Medicare carrier and Stak agencyallowed chargesin
excessof $15.8 million to 463 physicians who continued to practice afkr losing legal authority
to practice. Further, an additional 789 physiciansmaintained Medicare and/or Medicaid
provider numbers under which they could havepotentially billed the programsafter losing legal
authority to pm&cc.


METHODOLOGY

This inspection con&cd of three phasesin addition to a review of relevant HCFA policies and
Medicare laws, discussionswith HCFA staff, and review of the above audit findings.

Reviewing Caker iUai&nance Procedurts

We visikd three caniers and mailed surveys,with klephone followup, to 35 other carriers. (See
Appendix A for a complek list of carrier respondentsand Stak jurisdictions.) Questions
addressedprovider number maintenanceproctdurts carriers follow and were directed to the
departmentwhich is responsiblefor assigningnumbersto Medicare providers.

hrveying State Licensing Authorities

Many (121) Stak authorities responsiblefor licensing one or more typts of medical providers
who can receive reimbursementunder Medicare Part B respondedto our survey. The number of
licensing authority respondentsranged from a high of 28.Staks for dentiststo a low of 15 States
for psychologists. (SeeFigure 2.)
                                             flGURE 2
                           State Licen$ing Authority Respondents

I   TLpe of Licensing Authotity
      Dentists 

                                                        Number of States Responding
                                                                       28
      Doctors of Osteopathy 
                                          25
      Optometrists 
                                                   25
      Doctors of Medicine 
                                            24
      Chiropractors 
                                                  21
      Podiatrists 
                                                    18
      Physicii Assistants 
                                            18
      Psychologists 
                                                  15


Note: Someof the stak licensing authorities monitored licensing of severalor all of the types
of providers listed (e.g., a single agencyin Nebraskamonitors all providers hkd, while in Texas
separateboardsrepresenteachprovider type, with the exception of the TexasMedical Board
which monitors medical and osteopathicphysicians and physician assistants).

Computer Matching

We conducted computer matchesbetweenlicensing authorities and carkrs responsible for three
Statejurisdictions (New York, Pennsylvania,and Texas). The carriers involved were Empire
Blue Crossand Blue Shield, Blue Shield of WesternNew York, PennsylvaniaBlue Shield, and
TexasBlue Cross and Blue Shield. Thesecarriers were selectedbecauseof 1) the high number
bf providers within the Stateand 2) the capacity and willingness to provide us with a computer
file of all licenseeswho have lost the legal author@ to practice in the Stak. The computer
matcheswere conducted to determine the number of active provider numbersin carrier files
belonging to providers not 1egaUyauthorized to practice according to the applicable State
licensing authority.

In order to limit the scopeof this study, we limited our review of providers to physicians and
severalnonphysician practitioners. Entities such as labs, diagnostic testing centers,ambulatory
surgery centers,etc. were not reviewed.

Each canier provided a copy of its provider Ne on computer tape. The file contained all
provider num&rs in its computer systemwhich are approved to bill Medicare. Each stak
licensing authority provided a computer fde listing all providers who have lost the legal
authority to practice in their State. Pigure 3 indicates the types of licensed providers supplied on
the computer tape by the specified Statelicensing authority.




                                                  5

                                              FIGURE 3
                      - Types of Medical Providers on Licensing Tape


                                             Texas        Pennsylvania
             Doctors of Medicine 
             n               m

             Doctors of Ostetrpathy 
          n               m
             Dentists 
                                        m
             Podiatrists 
                                     m
             Chiropractors 
                                   n

             Optometrists 
                                    m
             Psychologists 
                                   m
             Audiologists 
                                    l

             Physical Therapists 
                             m
             Occupational Therapists 
                         n




The Stak licensing authority dekrmined loss of legal authority. The following are typical
actions resulting in loss of legal authority to practke:

Discipiinq   Actions

                Revocation or suspensionof license or certificate
                Negotiated surrenderof license

Other Actions

                Failm-eto renew the license or ccnificate 

                Retirement or death 

                Failure to complete continuing education 


Afkr the license is issued, Statesrequire licenseesto maintain a current rtgisuation to be legally
authorized to prxfice. This generally involves payment of a registration fee at intervals
determined by the Staot. Additionally, it might involve presentingevidenceof completing State
approved continuing education. Failure to maintain a current regisuation may lead, in some
staks, to canceling the license (e.g., TexasMedical Board). In other Staks, the license is simply
recorded as inactive (e.g., Florida and New York). SeveralStak laws provide penalties for
pracricing without a valid license and registration. For example, North Carolina’s law governing
the practice of medicine staks:

     “any person [who] shall practice medicine or surgery without being duly licensed and
     registered . . . shall not be allowed to maintain any action to collect any fee for such


                                                     6

services. The person so practicing without Licenseshall be guilty of a misdemeanor, and
upon comktion thereof shall befined hot lessthanfifry dolkzrs ($50.00) nor more than one
hundred dollars ($1OO.OO), or imprisoned at the discretion of the court for each and every
offense.” (Section 90-18, North Carolina Medical Practice Act)




                                         ..
                                    FINDINGS                              .
           ~aistoricaUy, management has not recognized the importance of
           maintaining accurate and up-to-date information on providers in our
           corporate file. ”
                               - A Carrier Provider Number Dept. Manager


HCFA’S DIRECTION TO CARRIERS IS INADEQUATE. .

Although Medicare regulations specify qutications a provider must meet before being
reimbursed by Medicare, HCFA hasissuedno directives concerning a carrier’s responsibility to
ensurewhether a provider is still qualified at somelater date after an initial provider number is
issued. Additionally, little guidance hasbeengiven conckrning how and at what frequency
carriers should determine the accuracyof provider-supplied information (e.g., practice location).
                     -
In f?e absenceof such rcqiremcnrs, the extent of updating, if done, varies from one carrier fo
the 12xt. For example, Nationwide Insuranceof Ohio updatesphysician assistantrecordsevery
ye: . :exti&d nurse anesthetistsand nursemidwives every 2 years,and ambulancecompanies
e\ 1 3 years. On the other hand, Empire Blue Crossand Blue Shield updatesDME suppliers
are-. .y.

WC   :. I eve inadequatedirectionby HCFA hasresulted in weaknessesin carrier controls to
miz- .1z1the integrity of Medicare carrier provider numbers. We believe this constitutesa
ma:. .-al internal control weaknesswithin the meaning of the Federal Managers*Financial
Ihi rity Act and should be reported to the Secretaryalong with plans for conective action.


WEAKNESSES EXIST IN CARRIER CONTROLS TO MAINTAIN ME?XARE
PROVIDER NUMBERS.

Although virtdy all caxrkn report the ptwider number assignmentprocessis Very important”
to the integrity of the Medicare program, we found little carrier effort to ensurethe information
maintained OQprovidu~ is accurateand up-to-date.

b     Most canicrs do not systematically up&z& providerfle~

Many carriers (22) repott little effott to updateprovider files except in responseto changes
submitted by the provider, to returned mail, or aspart of group mcmbershipvalidation. Most of
the rexnining cakrs (17) which do report periodically seeking updateinfotmation generally do
SOonly on an asrequired basis and only in responseto a perceivedproblem or need.




                                                 8

Typically, carriers reported the following reasonsfor not routinely updating or recertifying
providers after a number hasbeenissued:

              lack of staffing,
              lack of funding,
              no perceived need for Ne review, or
              no HCFA requirement to do so.


                                    An Effective Practice

        One practice involves routinely sending out b$ormation vetificafion leners to
       providers. As an example, Montana Blue Shield set& out an infotmation
        gathering lener each year w all providers except durable medical equipment
        suppliers and hospital based physicians. Providers are required to firr out the form
       ‘and return it. Providers not responding ore called by carrier stq@ The answers
        given on the ques&tnai~s are ver@ed again &a already on file for
        &crepancies.


Physician Group/Clinic Membership Updating
       ;.. ..
           ,L
One of th6few provider types for which carriers do conduct some typt of routine updating
involves physician groups and clinics. In connection with the physician identification and
registration program (UPIN), HCFA requires catriers to maintain accurategroup membership
information. Specii?cally,carriers arc required to 1) inform groups of their obligation to report
any group member additions or deletions and 2) perform an annual survey of groups to detect
any chm       not reported by the group during the yeaz

Carriers typicaily noti@ groups to report membershipchanges,both at the time numbersare
given out and periodically in cazricr newsietters. S&I, a-hers teport such changesare not
always qorted. Six of 38 carriers surveyedreport membersjoining a group or clinic are only
sometimesrepor%& while 19 report Embers leaving ate only sometimesrqorted.

>     Communications betweencarriers andprofessiond kensing authorities are weak

Lack of Reporting

Many of the licensing authorities we contacteddo not routinely shareinformation with carriers
when a provider losesthe legal authority to practice. However, medical and osteopathic
licensing authorities routinely report more often than any other (SeeFigure 4.)

Lack of reporting is especially notable with regard to nondiscipiikuy actions. Of the authorities
who reported routinely sharing information with the hkdicare carrier, less than 24 percent (12 of
51) report nondiscipiinary actions as weiL


                                                 9

                                           FIGURE 4
                   Many Ucensing Authorities Do Not Share Information
                                     With Carriers

   Licsnslng AuthoHty          States Surveyed    .      Do Not Sham              Share

   Doctors of Mediiine                23                     26%                   74%
                                                                                   71%
   pot;       Osteopathy              24
                                      17                     2                     35%
   optofnetrists                      14                     74%                   28%
   Chiropractors                                             74%                   26%
   Dentists                           2                      78%                   24%
   Psychologists                      14                     88%                   14%


Somepossible reasonswhy licensing authorities do not routinely report actions to Medicart
carriers include a lack of staff or resources,not being awareMedicare needsthe information, and
privacy considerations. However, according to the Federationof StateMedical Boards.’ only
four medical boards (Connecticut, New Hampshire, South Dakota, and Wyoming) do not
consider formal board actions or agreementsa matter of public record.

Organizational Differences

Each Stateis different in the way it has setup authoritieszesponsiblefor licensing medical
professionals. At one exmme, WCfound Stateswhere one agencymaintains information on
actions taken by severalboards (hezeafterreferred to asan umbrella agency). In somecases,
boardsact only as advisory bodies to the umbrella agency. At the other extreme, we found States
where individual boardsare completely independentfrom other boards,and no central authority
rphkors board actions tie&g      a licensee’sauthority to practice.

The Federation of Medical Boards classifies Statemedical boardsinto four broad categories
which describe board suucture and operation (seeFigure 5):

     l     Independent            The board exercisesall licensing and discipiinaq powers,
                                  though someclerical seniccs may be provided by
                                  an umbrcila agency.

     l     Se~4aubnomous          The board exercisesmost key powers; an umbrella agency
                                  provides most clerical and administrative services
                                  and makessomedecisions.

     l     Subordinate            The board exe&es few key powers; an umbrella agency
                                  pm&s semicesand’makesmost decisions.

     >     Advisory               The board actsin a purely advisory role to the unibrcila agency.
                                      FIGURE5
                   - Most State Medical Boards are Independent



                                                          Board Structure
                                                          0 Independent
                                                          w Subordinate
                                                          EZlSemi-iutonomous
                                                          I Advisory Body




                    Source: Federation of State Medical Boards’ 1989-90 Exchange


As illustrated in Figure 5, most medical physician licensing boards are independent. However, at
least 15 of the 38 independent boardsrely on other Stateagenciesfor most administrative
functions (e.g., maintaining computer systems~collecting renewal fees,etc.). This meansat least
54 percent of all Statesand the District of Columbia are monitored by umbrella agencies.

These umbrella agenciescan greatly assist a carrier in obtaining complete licensing information.
Although the boards often must be consulted for specifk &tails about discipiinaxy actions, the
umbrella agency maintains adequateinformation in its computer systemto provide information
on the legal statusof a licensed professional. Carriers needonly contact the umbmlla agency to
coordinate any exchangeof information.

On the other hand, autonomousboardslacking an umbrella agencyrequire the carrier to contact
each individual board for information. Since autonomousboards are generally small and
burdened with many aspectsof licensing (e.g., administering examinations and collecting license
renewal fees), they are less likely to have the resources(e.g., staRand degreeof automation) to
respond to carrier requestsfar information. In such situations, it may be more feasible to contact
providers directly to submit proof of cutrent licensurc or certification.




                                                11 

               -.


Automated Record Keeping

Responsesti      completed surveysby 121 licensing authorities indicate Statelicensing
authorities have the capacity to generatelistings of providers who are actively registeredin a
profession. Nearly 90 percent of respondentsrepcxt’lictnscc information is maintained in a
computer system Only one licensing authority for medical physicians,WestVirginia, reported
no computer. (However, they indicated a micro computer would be purchasedby the end of the
year.) Boards with a small licenseepopuiation (e.g., psychologists) were least !;keiy to keep
records in an automatedsystem

Many State licensing authorities keep recordsin a mair&ame or mini computer. However,
licensing authorities which do not shareresourceswith other Statelicensing authorities
(e.g., smalI autonomousboards) typically keep information in a personalcomputer. Of the 73
licensing authorities which provided information on the type of computer systemused,71
percent use a mai&ame or mini computec others usepersonalcomputers.

Whether computerized ornot, eachlicensing authority hasthe ability to provide listings of
providers who have the authority to practice. Such listings take the form of periodic publications
or computer listings generatedat the time of the request Virtually all authorities we contacted
produce such listings at no or minimal cost ($10 to $100). WCcontacteda few of the licensing
authorities reporting higher costs($200 or more) to discusswhether the cost could be lowered
for a Federal Medicare contractor since its usewould be to monitor providers the board reports
to be not legally author&d to practice. As an example, Colorado’s quote of $320 for a complete
listing would be lowered at least by half to the cost other Stateentities are paying.

l       Many        can&m   do   twt   have   adhquute   contds          to icient@   and   deactivate   provider
    .   numbers belonging to providers who have los! the Legala&on*@ to practice.

Many carriers do not have arrangementswith Licensingauthorities to receive notice of all actions
(ciisciplin&y or other) affecting the legal authorization of providers to practice. Failure to
receive this information and take appropriate action leavesthe carrier vulnerable to making
paymentsfor serviceswhich are noncoveredby Medicare.

Discipiinary Actions

While many canicrs report they haveestablishedcommunication with licensing authorities to
receive discip%rary actions, somehave not. (SeeFigure 6.) Generally, licensing authorities
report disciplinary actions in the form of a board order. The order statesthe type of action taken
and its duration. For most carriers who report receiving actions, the board order is sentto the
medical review or program integrity deparrmcntwhere a decision is made on whether the
provider’s number should be deactivatedor flagged for postpay or prepay review.




                                                                  12 

                                            FIGURE 6 

                   Not-All Carriers Receive Notices of Disciplinary      Actions

     T’s    of Ptvviders 
               Number and Penzent of Cafriem Receiving Notice

     Doctors of Medicine 
                       30                         79%
     Doctors of Osteopathy 
                                                74%
     Chiropractors 
                             ::                         53%
     Optometrists 
                              19                         50%
     Podiatrists 
                               19                         50%
     Dentists 
                                  19                         50%
     Psychologists 
                             19                         50%
     Physical Therapists 
                       18                         47%
     Occupational Therapists 
                   17                         45%
     Ambulance Companies 
                       15                         39%
     Certified Nurse Midwives                    13                         34%
           and Anesthetists

     Source: Survey of 38 Carriers


Other Actions

Although loss of authority to practice for nondisciplinary reasons@onpaymentof renewal fees,
death, retkment, voluntary surrenderof license,etc.) causea provider’s servicesto be
noncoveredby Medicare, many carriers do not identify such providers. (SeeFigure 7.)


                                            FIGURE 7
 L
             Even Fewer Carriers Receive NOtic8S of Nondiscipiinary           Actions
     TLpes of Providers                  Ntamber and Perc8m uf Carrbm Recek’ving Notice

     Doctors of Mediine 
                        25                         66%
     Doctors of Osteopathy 
                     23                         61%
     Chiropractors 
                             14                         37%
     Optometrists 
                              13                         34%
     Podiitrists 
                               14      .                  37%
     Dentists 
                                  13                         34%
     PSY~W-
                                     14                         37%
     Physical Thmpbts 
                          13                         34%
     OccupatbnalThera@sts 
                      12                         32%
     AmbulanceCompanies 
                        11                         29%
     Certlfled Nurse Michnives 
                 11                         29%
          and Anesthetists
     Source: Survey of 38 Camws


Our review af four carriers revealed vulnerabilities in this area. Although each canier reported
receiving nondisciplinary actions from licensing authorities, we found many active provider
numbers belonging to providers not legally authorized to practice for other than disciplinary


                                                13 

reasaIS. None of the carriers had askedfor or receivedcomplete listings of providers adequate
to ide ltify all providers not legally authorized to practice.

As w: tl our computer match States,caxricrswho rtport receiving notice of nondisciplinary
actionI may not usethe information or may receiveincomplete or untimely infotmation. This is
evidecced by many carxiersreporting they deactivatevery few, if any, providers who lose State
legal authority to practice for other than disciplinary actions.

                                           An Effective Practice
           A formal agreement with licensing authorities prescribing exactly what actions
           will be commuru‘cated to the carrier, at what times, and to whom the infomtion
           will be sent is a good practice. Such an agreement adds confidence that all
           actions affecting a licemee’s legal author@ to practice will be commuu ‘cared in
           atimelymanner.
      L                                                                                           \
                              -
*	        i ’ ny providers wit0 have lost the &gal autiwdty to practke still have adve provider
             .-tiers which they may use and, in somecases,are using to bill Medicare services.

Throc i x computer matches,we identified 4,770 active carrier provider numbersbelonging
to prc : s who had lost the legal authority to pracrice. (SeeFigure 8.)

 -.

                                                        FIGURE 6
          h ..ry Providers Not Legally Authorized to Practice Have Active Numbers

                                          Wts - Provider Numbem BelongIng to Pfov lers Not Author&d
                                          P8re8nt of.            M8wlYa!38mpl8dfor    s8mpld Provldw
                                             An                  Allowd ClutQu whlk  NumbamWith Allowed
          Carriers                                    -bY
                                           Numkn                     NotAtiM               chug88
                                                      mrlpunvr ’
                                          QJqoct to
                                                                  COUtIt     PerCent Count      Allowed
                                            Ymcil
 Empire Blue Shield               1,426       5% I         2.5% I    160   1   11%       21    $132,567
 31~0 Shield of
                                   217        2.5% j       2.0%/     104   /   47.9%      19    $81 ,160
 Nester-n New York
 aennsylvania        Blue
                                  1,590       &XI   j      1.1% /    121   /    7.6Yo      9    $78,416
 shield
 Texas Blue Shield                1,537                                                  39     $12,311

                      Total       4,no                             I 849I                 88   $304,454




                                                           14
Approximately 10 percent (88 of 849) of sampledprovider numbers had allowed charges2while
the provider was not legally authorized to practice. This percentagevaried slightly at each
canicr. For examplk, at the 95 percent confidence level as few as 8.1 percentor as many as 18.1
percent of the 1,426 provider numbersidentified at Empire Blue Shield had allowed charges.
When a 95 percent confidence level was computed for Blue Shield of WesternNew York, the
estimatedpercentageof provider numberswith allowed chargeswas within the interval of
 12624.0 percent

We found over $300,000 in allowed chargesto the provider numberssampledat the four
carriers. These allowed chargesranged from $18.30 for one ScrYiceby one provider to over
$100,000 for 3.018 servicesby another. Becauseof this extreme variability and the small
number of provider numberswith allowed chargeswhile the provider was not legally authorized
to practice, any resulting projections will be very imprecise. This does not mean any projections
of the allowed chargesto the unsampledpopulation would be inaccurate. However, it does mean
with the sample data we do not have sufficient power to provide a preciseestimateof the
allowed chargesto providers not legally authorized to practice.

Still, theseresults r&for& past OIG findings. The review of Florida physicians between 1980
and 1985 showed carrier allowed chargesin excessof $15 million for sckccs renderedby 439
providers after they had lost legal authority to practice.

>	   Inaccurate or missing information in somecanierj?les may hamper effective use of
     State licensing authori~ information

Esp+lly in the caseof computer matches,certain carrier records must be maintained
accurately. Two fields are especially important - provider name and license number. Theseare
the &ly’two fields we arc certain both licensing authoritiesand carriers COkL

Missing Carrier License Numbers

While few carriers do not record provider license numbers,a considaable number of carriers
have only recently begun to enter thi license number in a computer file. As a consequence,in
many older provider records set up previously, the license number fields arc empty. Records
were missing license numbers in eachof the carrkrs where we conductedcomputer matches.
Figure 9 ilIustratcs the degreeof missing license numbersat Empire Blue Shield and Blue Shield
of WesternNew York

As indicated in Figure 9, the percentageof license numbersdifkrcd markedly depending on the
type of provider For example, physicians had the highest rate of license numbers while
practitioners such asphysical therapistshad the lowest This may be an indication of the impact
of HCFA’s UPIN project The license number hasbeen termed a critical element to be collected
by carriers when setting up a physician number. However, HCFA does not require the license
number in order to issue a UPIN.




                                               15 

                                              FIGURE a
                                   Missing License Numbers



                                          Numbers RevIewed           Percent Missing Number

    Donors of Medicine and Osteopathy          32,446                       29%
    ggwa~P=                                     2,337                       14%
                                                  774                       17%
    Podiatrists                                 1,712                       18%
    Psychologists                               2,641                       93%
    Audiibgists                                   141                       9%
    Physical Therapists                           377                       99%
    Dentists                                      226                        3%

                                  Total        w=

                          -        Blue Shield of Western New York

                                          Numbem Reviewed            Percent Missing Number

    Doctors of Medicine and Osteopathy         12,162                       38%
    Chiropradbrs                                  577                       77%
    optometrists                                  501                       42%
    Podiatrists                                   354                       3%
    Psychobgists                                  246                       44%
    Audiologists                                                            20”/9
    Physical Therapists                             2::                     53%
    Dentists                                        262                     63%
.
                                  Total        14,351

    Soutce: Review of Cam’er Pfvvklef Files


Inaccurate Carrier License Numbers

Even if the license number is entered,carriers may not be ensuring the accuracyof the number or
may not be entering the number in a form which will correspondto the licensing authority’s
number. To illustrate, we encounteredErrol and inconsistencyin the way our samplecarriers had
entertd license numbers. Transposingdigits in the number was the most fkquently encountered
error. To a lesserextent, somelicense numberswere incomplete, had too many digits, or
included inappropriate prefixes.

Provider Name Irregularities

Review of car&r files in which we conductedcomputer matchesrevealedcarriers enter the
nameas given by the provider on the application. For example, one provider might be listed as
Robert Stanley Smith, Jr. on the licensing authority’s file, while the ctier might haveentered



                                                    16 

the name as Bob Smith or R Smith on the carrier’s file. This createsan unwarrantedpotential
for confusion. Carriers could easily ask providers for complete legal namesand verify the name
spelling with that of the licensing authority when the provider’s qualifications are verified (i.e.,
license number is checked).


IMPROVEMENTS THROUGH VARIOUS ADMINISTRATIVE                             ACTIONS OR
PROGRAMS ARE POSSIBLE.

Many types of caxrieractivity can improve the accuracyand reliability of information
maintained in provider records. Often, suchactivities can be accomplishedat little cost to the
Medicare program through largely automatedrather than manual verification procedures. The
following are a few examplesof specific maintenanceactivities. Also, we include a short
discussionof the actual beneficial effects to physician provider records obtained by carriers
during UPIN associatedactivity.

w	    Carriers can reduce the number of active provider numbers, reduce Medicare’s
      vulnerabili@ to abuse, and saveadministrative costsby periodcally deactivating
      provider numbers with no billing history.

One simple and cost effective method for updating provider files, followed by nearly two-thirds
of carriers surveyed,is to deactivatethe numberswhich belong to providers without recent
billing. The effects of removing inactive providers could be significant

*Atone carrier not routinely deactivating provider numberswith no billing history, nearly 30
percent of “active” provider numbers belonged to inactive providers. (SeeFigure 10:)
(Ipactive providers were &f&d asprovider records with no Medicare billing for the past 27
months.) titters were sent to providers to determine if they still wished to participate in the
Medicare program. Almost 78 percent of theseproviders failed to respond or requested
termination of their number. Ultimately, 15,215or 76.6 percent of provider numberswith no
billing history were canceledbecauseof this project Not only doesthis reduction in provider
numbersincreasethe manageability of the carrier’s provider file, it translatesto an administrative
cost savingsto the Medicare program. Such activities as yearly profile calculations, file
maintenanceactivity, and routine mailings will not be required.




                                                 17 

                                                         FIGURE 10 

                      Many Provider Numbers With NO Billing Could be Canceled
                                      Texas Blue Cross and Blue Shield’s Experience

                                          Numbers Wlth No Blllina                 Cancelled Provider Numbers
                         Active
       Type of          Provider                      Percent of
       Provider                                                                            Percent of    Percent of
                                          Numbers       Active                NUtllbMS
                        Numbers                                                            No Bllllng   all Numbers
                                                       Numbers
    Doctor of
    Medicine             42,932              11,842             27.6Or6          9,819         82.9%           22.9%

    Drug and
    Medical                6,348              2,013             31.7%            1,752         87.0%           27.6%
    SUPPlY
    Dentist                6,123             3,250              53.1%            2,274         70.0%           37.1% 

    Doctor of

    3steopathy             2,646.              672              25.4%     *       567          64.4%           21.4% 


    Zertified
    Uurse                  1,960               617              31.5%             300          48.6%           15.3%
    Anesthetist
    ZhiropraAor            1,750               203              11.6%              130         64.0%            7.4%

    ‘sychologist           1,236               688              55.7%             312          45.3%           25.2%

    ‘odiatrist               624                 75             12.0?&              60         80.0%            9.6%
    kcupational
    Therapist                     7                  1          14.3%                  1      100.0%           14.3%

              Total      63,626             19,361              30.4%          15215           76.6%           23.9%


l         Computer matching with licensing authorities could help many cawiers identifi
          ptvvi&rs not legally authorired to practice.

Our experiencewith computer matching to identify providers not legally authorized to practice
hasproven such activity is an effective tool to maintain the integrity of provider records and
reduce Medicare’s vulnerability to l&d and abuse. Additionally, suchfries can have other uses.
Not only could the file be used to conduct computer matching, lists of authorized providers
could be produced for departmnts responsiblefor assigningprovider numbers. In fact, carriers
could incorporate the licensing authority’s file into a canier computer program screensuch that
all carrier departmentswould not have to manually look up licensing information on providers,
but could query the computer instead




                                                         18 

           ..


All of the licensing authorities which indicated having a computer systemalso teported they
could generatea computer file of all licensedproviders. Of these,over 50 percent also have the
capacity to generatelistings only of providers who have lost the legal authority to practice.
Apparently, somelicensing authorities keep only recordsof actively registeredproviders. Any
licenseefailing to renew a license is purged from its system

Medical physician licensing authorities teported chargesfor such files ranged from no charge to
a government agency to severalcentsper record. Somt of the estimatedcosts were asfollows:

        Medicai Physician Licensing         costof File
                 Rhode Island 
                 $50
                 Nevada 
                       $50
                 oklahoma 
                 $75-150
                 Idaho 
                      $100
                 TCxaS 
                      $100
                 Alabama 
                    $150
                 Ohio 
                       $150
                 N&&ii 
                      $175
                 North Carolina 
             $250
                 FlOrida 
                    $260
                 COMCCtiCUt 
                   $65 pcr’profession plus $25 for a tape
                 Vermont 
                       $5 processingfee plus five cents per record
                 North Dakota 
                  $0.05 per physician record
                 Missouli 
                 No chargeto Federal government agency
                 New York 
                 No chargeto Federal government agency
 .               California                 No chargeto Federal government agency

Costsfor smaller boardssuch as chiropractic or optometry were generally between $25 and $50.
It should also be noted Statelicensing authorities may lower processingcosts,if they realize the
purpose of Medicare’s requestfor the information and that the carrier is a Medicare contractor.
As an example, Ohio sells a computer tape of licensedphysicians for $1,500 to private entities.
However, certain Stateand Federal agencies(including Medicare) can receive the tape for as
little as $150.




                                                19 

                                     An Effective Practice
         Carriers fo; 3 States (Flonkia, Missouri and Tkxas) reported obtaining a computer
        file from a licensing board in order to i&nrifL providers not legally awhon’zed to
                    Each carrier teports use of such a computer file to be an inexgenrive, yet
         effective, method to aktect providers not legally authorized to practice.
        In 1989, Florid0 reported the deactimtion of appro.xkztely 300physician
        provider numbers for failure to renew their license. In 1990, Texar deactivated
        nearly 1,500 provider numbers for physicians not legally authorized to practice.

I iow costly are computer matches?

1he effectivenessand cost of computer matching dependsupon stverai factors. Someof these
fi ctors are:

             the ctier’s.computer capabilities,
             Wrier programming costs*
             licensing authority ability to produce a useableftie at a reasonablecost,
             adequateidentifiers for matching (license number, name,birth date, etc.), and
             sufficient integrity of the carrier’s and licensing authority’s provider file (e.g., if
             matchedon the license number, all carrier recordsmust have iicense numbers).

     practical example of the cost of computer matching, Florida Blue Crossand Blue Shield
i    ratedits match cost for start-up and yearly follow-up:

                 $1,120        Initial developmentfor first match 

                 $ 260         Computer tape purchasecost f%omStatelicensing authority 

                 $ 200         Adminisuativt coststo run match (e.g., computer CPU time, 

                               letter generationto providers without a valid License,staff time
                               to receive and file provider responses)
                 $ 250         Maintenance (activity associatedwith updating match programs)
                 $lW           Total Cost for Initial Match

                 $ 710 	       Cost for Subsequent Matches (the $1,120 initial
                               development is no longer required)

>	    Cam’er e#orts under HCFA’s physician identip&*on and registration program (UPIN)
      have improved the accuracy of provider number mcordr of physicians.

St:venty percent of caniers responding to our survey statedthat, in the courseof fulfilling
re ;1’kementsfor HCFA’s physician identification and registration program (WIN), it
substantially cleanedup physician records. In total, 18 carriersreported the identication of


                                                  20 

approximately 11,500physicians whose numbersneededto be canceledor deactivated. Some
other cakcrs respondedon a percentagebasis;from 10 to 20 percent of physicians in its system
had their numbersd&activatedor canceled. The primary reasonsfor deactivation were death,
rekxnent, or no longer practicing in the State.


 r                                 Matetial Weakness

      Inadequate HCFA oversight and direction of the provider number process is a
      basic systemic weakness that compromises the integrity of the trurtfud and could
      remit in significant losses. In accordnnce with the Federal Managers’ Financial
      Integrity Act, the HCFA should repon this as a material internal control weakness
      through the Secremy to the President and Congress. A detailed discussion of the
      material weakness designation can be found in Appendix B.




                                              21 

          ..


                       RECOMMENDATIONS
The HCFA should &rim      carriers to:

     l     updateprovider recordsperiodically.        ’

     l     deactivateall provider numberswithout current billing history.

     l	    establish adequatecontrols to ensuit providers not legally authorized to practice are
           identified and their provider numbersdeactivated As a part of thesecontrols, carriers
           should:

                   -   negotiate with Statelicensing authorities to obtain license and
                       registration information at a minimum cost to the Medicare program.

                   -   assessthe feasibility of computer matcheswith Statelicensing authorities
                       and perform suchmatchesroutinely, if practicai.

                   -   maintain the licenseor certifkation number of providers in its provider
                       file.

                   -	 &velop computer data entry edits for license numbersto ensure
                      uniformity and consistencywith the licensing authority’s method of
                      recording license numbers.

Tie HCFA should:

    l	    evaluatecarrier provider number controls establishedaboveas a part of its regular
          carrier Contractor PerformanceEvaluation Program.

    l	    negotiate with Statelicensing authorities, which carriers report to be uncooperative,to
          obtain license and registration information at a minimum cost to the Medicare


HCFA COMMENTS AND OIG RESPONSE

The HCFA achowledges the needfor improvement in its instructions given to Medicare carriers
regarding the maintenanceof provider numbers,but does not believe our fmdings constitute a
material intcmal control weakness. The HCPA maintains that UPKNrequirements “firmly
establishedboth a meansand a HCPA commitment to maintaining accurateprovider number
information.”




                                                 22       .
TheHCFA concurswithourrecommendations       topcddically updateproviderrecords and
conditionally concurswithourrecommendation   to deactivate
                                                         numberswith no recent billing
activity. The HCFA doesnot concur with recommendations  requiringca&rs to implement
conaols which are adequateto ensureproviders notlegallyauthorizedto practice are identified
and their provider numbersdeactivated..The HCFA citesthe OIG’s sanctionrole and several
impediments precluding the implementation of computer matching. Additionally, HCFA does
not believe a CFZP standardis warranted to ensureand evaluatecarrier maintenanceactivity.

     The HCFA incorrectiy argues the resporrsibility for ensuring providers losing legal 

     authority to practice are idennified rests with the OIG. The OIG’s sanction role is 

     timiled and does not take away the responsibility of cam’ers to ensure payments 

     are not made to unqualified providers. The Physician Registry does not ensure 

     maintenance of the accuraq of provider nwnber infomation as indicated by 

     HCFA, exceptfor detecting sanctioned physicians. Finally, carrier effons to 

     maintain the integrity of provider numbers warrants evaluation during HCFA’s 

     annual cam’er smey process. 


    The OIG continues w believe a materiai internal control weakness txists. 

    The HCFA’s l&k of direction has resulted in vuinerabiiities which meet several 

    of the criterb upon which a mate&l weakness designation is detemined. 


SeeAppendix B for a summary of HCFA’s commentsto ;he draft report and a complete
discussion of the OIG’s response.Also, this discussionincludes factors consideredin
determining a material weakness3designation exists (Appendix B, pages4-S). Appendix C
includes the full text of HCFA’s comments.




                                               23 

                                 ENDNOTES 

1. 	 According to information in the Federation’s 1989-W Exchange,Section 3:
     Physician Licensing Boards and Physician Discipline.

2. 	 Allowed chargesrepresentthoseamountsdetemined by the carrier basedon the lower of
     the USLU&customary,or prevailing chargesfor the service.

3.   Material weaknesscriteria are specfied in OMB Circular A-123.
                        APPENDIX                A

           CARRIER RESPONDENTS ad STATE JURBDKTIONS

                            381
Blue Crossand Blue Shield tf Alabama       ’    Alabama
Aema Life and Casualty                          Arizona, Nevada
Arkansas Blue Crossand Blue Shield, Inc.        Arkansas,Louisiana
Blue Shield of California                       California
TransamericaOccidental Life Insurance           California
Travelers Insurance                             Connecticut
Blue Crossand Blue Shield of Plorida, Inc.      FlOlidil
Aetna Life and Casualty                         Georgia
Aetna Life and Casualty                         Hawaii
Equicor                                         Idaho
Health Care Service Corporation                 Illinois
Associated Insurance                            Indiana
Blue Shield of-Iowa                             Iowa
Blue Crossand Blue Shield of Kentucky           Kentucky
Blue Crossand Blue Shield of Maryland           Maryland
Blue Crossand Blue Shield of Michigan           Michigan
General American Life                           MissoLlIi
Blue Crossand Blue Shield of KansasCity         Missouri, Kansas(Johnsonand
                                                Wyandotte Counties]
Travelers Insurance 
                           Minnesota
Travelers Insurance 
                           Mississippi
Blue Crossand Blue Shield of Montana, Inc. 
    Montana
Blue Shield of WesternNew York 
                New York
Empire Blue Crossand Blue Shield 
              New York
Group Heahh Incorporattd 
                      New York
E4uicor 
                                       NorthCarolina
Blue Crossand Blue Shield of North Dakota 
     North Dakota, South Dakota,
                                                Wyoming
Nationwide Mutual 
                             Ohio, WestVirginia
Aema Life and Casualty 
                        Oklahoma, New Mexico
Aetna Lift and Casualty 
                       Gregon, Alaska
PennsylvaniaBlue Shield 
                       Pennsylvania,Maryland (Prince
                                                Georges& Montgomery Counties),
                                                Delaware, District of Columbia,
                                                 New Jersey
Blue Crossand Clue Shield of Rhode Island 
      Rhode Island
Blue Crossand Blue Shield of South Carolina 
    South Carolina
Blue Crossand Blue Shield of Texas,Inc. 
        Texas
Equicor 
                                        Tennessee
Blue Crossand Blue Shield of Utah 
              Utah
Travelers Insurance 
                            Virginia
Washington Physicians Service 
                  Washington
Wisconsin Physicians Service 
                   Wisconsin

                                       A-l 

           _.



                                APPENDIX                        B

      SUMMARY OF HCFA’S COMMENTS TO SPECIFIC RECOMMENDATIONS
                         AND OIG’S RESPONSE


RECOMMENDATION 1: 	 HCFA should require carriers to update provider records
                    periodically.

HCFA Comments

The HCFA concurs with this recommendation.

0 IG Response

The OIG is pleasedHCFA acknowledgescarrier responsibility to ensurethe accuracyof provider
records through periodic updating.


 ECOMMENDATION 2: 	 HCFA should sequin can$ers to deactivateall provider numbers
                    without current billing histov.

  ZFA Comments

  e HCFA concurs with this recommendationand further proposesimplementing carrier
  xtivation asan annual activity to be implemented by carriers when funds becomeavailable.

  IG Response

 TheOIG does not believe deactivating inactive provider numbersshould be delayed This
 -ctivity is important to maintaining the integrity of carrier provider flies and may also result in
 n administrative cost savingsto the carrier. Additionally, requiring carriers to perform this
 ctivity will only affect about a third of the carriers. As referred to in the repor& the other
I tiers already pcrfom this function.


I?ECOMMENDATION 3: 	 HCFA should require Carrie= to estiiish adequate controls to
                     ensure providers not leg&y authorized to practice are identified
                     and their provider numbers deactivated

L’;‘CFAComments

7 1eHCFA does not concur with this recommendation. The HCFA believesproblems exist
w lich limit or prohibit implementation of computermatching. Primarily, HCFA believesthe
k~nefit to the integrity of the Medicare program is too small to justify the cost However, HCFA


                                                  B-l
 will encouragethosecarriers which canestablishdata exchangeswith Statelicensing authorities
 without charge and with minimal administrative coststo conduct computer matches. Finally,
 HCFA believes UPIN establishes“both a meansand a HCFA commitment to maintaining
 accurateprovider number information.”

 0 IG Response

 Medicare law does not allow carriers to make payment to providers not legally authorized to
 practice in tire State where servicesate rendered. Consequently,HCFA cannot permit carriers to
 ignore a State’slegal authorization requirements.

We acknowledge the existing differencesamong Statesconcerning Statelicensing authorities’
ability to provide computerized registration information. Also, we understandcanier differences
which may impact on the cost and effectivenessof implementing this recommendation.
However, we do not suggestthat computer matching with licensing agenciesis the only means
available to carriers. We suggestonly that carriers study the feasibility of conducting computer
matching. Manual procedurescan be effectively and cffL5ently usedwhen computer matching
is infeasible or not cost effective.

Proceduresmust be tailored to fit the carrier and State. Somecarriers will encounter less success
or more cost in meeting this requirement. However, this does not justify not requiring catxiersto
implement proceduresto deactivateall providers not legally authorized according to State law.
If excessiveor unsurmountableproblems exist in achieving the integrity of provider ncords,
HCFA should seeklegislative relief.

The HCFA arguesour report does not indicate they can expect a significant return on its
investment Specifically, HCFA believesdetermining legal authorization is not cost effective.
Becausecarriers have not yet studied the feasibility of conducting suchmatches,we question
HCFA’s estimate that coststo implement computer matching may exceedone million dollars.

While an exact cost estimateof Medicare overpaymentsis not determinable, we believe our
repon shows a sign&ant vulnerability which warrantscarrier action.

We agreeUPIN activity hasimproved the accuracyof physicians records and can be usedto
effectively detect sanctionedphysicians. However, improvements to physician records were due
primarily to carrier review and contact with licensing boardsand/or physicians to develop for
missing data or nonassignmentof a UPIN. The UPIN databasehas little real impact on
maintaining the accumcy of provider records beyond detecting sanctionedphysicians. Carrier
action is required to identify thoseproviders losing legal authorization to practice who are not
subject to sanction under Medicare law or are nonphysiciansexcluded from UPIN.




                                              B-i
RECOMMENDATION 4: 	 HCFA should evaluateprovi&r number controls established
                    above as a part of its regular carrier Contractor Pevormance
                    Evaluation Program (CPEP).

HCFA Comments

The HCFA doesnot concur with the establishmentof a CPEPstandard(s)for provider number
maintenance. HCFA refers to deactivation of inactive provider numbersasa “small area” of
claims processing. The HCFA arguesthat c&ing CPEPstandardsusedto measureadherenceto
HCFA’s policies will evaluatecompliance with our recommendationto deactivateprovider
numberswith no billing activity.

OIG Response

Carrier maintenanceis not a relatively small areaasimplied by HCFA; rather, it warrants serious
HCFA review. Establishing a specific standard(s)for provider number maintenancewould be
critical to ensurecarriers implement controls recommendedin this report
                      -
CPEPcontains 10 functional criteria which contain a total of 79 standardsplus two test
standards. Four of thesestandardsalone involve the Physician Registry (UPIN). Certainly,
carrier maintenancewarrantsadequatereview as well

The OIG does not agreecarrier deactivation of inactive provider numberswould be adequately
evaluatedby any existing CPEPstandard. Adequateevaluation under existing standardscould
only be accomplishedby altering HCFA’s method of evaluating a standardto include specifically
assessingcarrier deactivation policies.


RECOMMENDATION 5:             HCFA should negotiate with State licensing authorities, which
                              can-&s report to be uncooperative, to obtain license and
                              regism*on infonntrtion at a minimum cost to the Medicare
                              pwmm

HCFA Comments

The HCFA doesnot concur with our recommendationto negotiate with Statelicensing
authorities to obtain license and registration information at a minimum cost to the Medicare
PWmm-
OIG Response

The OIG continues to believe intervening on behalf of carriers could be critical The OIG does
not fully understandthe reasonsfor HCFA’s nonconcurrencewith this recommendation.

The HCFA believescarriers should updateprovider recordsperiodicdly and acknowledges
verifying provider statuswith licensing authorities “has merit” Further, HCFA proposesto

                                               ..
                                               B-3
encouragecarriers to establish data exchangeswith licensing authorities. However, HCFA is
unwilling to negotdc with Statelicensing authorities on behalf of carriers wishing to obtain
licensing information (computer or hardcopy).

Additionally, if carriers arerequired by HCFA to deactivateproviders losing legal authority,
HCFA’s intervention to assistcarriers in negotiating with licensing agenciescould be critical.


MATERIAL WEAKNESS
DESIGNATION: 	                  The OIG believesina&quate direction by HCFA has resulted in
                                weaknessesin carrier controls to maintain the integrio of
                                Medicare carrier provider numbers. The OIG believesthis
                                constitutes a material intemal control weaknesswithin the
                                meaning of the Fe&ml Managers’ Financial Integri’ly Act and
                                should be reported to the SecrerpIy along with plans for
                                corrective action.

HCFAComments          -

 The HCFA does not believe a material internal control weaknessexists in HCFA’s direction to
 carriers or in provider number controls. The HCFA believes the material weaknessdesignation
 “does not meet the Office of Managementand Budget’s or the Department’sdefinition of a
 materiai weakness.” However, HCFA doesagreeproblems exist with timely carrier
 identification and restriction of paymentsto providers losing’legal authority to practice. Yet,
.HCFA believes the solution to the problem is more involvement by OIG’s sanction staff, rather
 than more carrier effort

OIG Response

The OIG continuesto believe a material internal control weaknessexists. The material weakness
designation is basedon inadequateHCFA direction and carrier efforts to maintain the integrity of
Medicare provider numbers.

The HCFA incorrectly arguesthat OIG, through its sanctionrole, is responsiblefor ensuring
providers losing the legal authority to practice arc identified. The resportsibiliry for the integrity
of Medicare pmvider murders rests with takers.

The OIG sanction processapplies only to thoseproviders committing actions sanctionableunder
Section 1128of the Social Security Act. Yet, severalStateactions can causea provider to lose
Statelegal authtity to practice without necessarily justifying program exclusion. Additionally,
the sanction processcan be lengthy.

Carriers are responsible for understandingState-imposedpxacticerequirements,maintaining
adequatecommunication with licensing agencies,and administering provider files; consequently,
carriers can most effectively and effkicntly establishproceduresto identify test&ted providers.



                                                  B-4 

Material WeaknessCriteria

The Office of Managementand Budget (OMB) hasspecified many criteria upon which a
material weaknessdecision should be based. Findings meeting any single criterion constitute
noncompliance with the Integrity Act and thus, should be classified as a material weakness. The
following examplesillustrate how our fmdings meet severalcriteria substantiatinga material
weaknessdesignation:

     l     Does the weakxess violate statutory or regulatory requirements?
           As a result of inadequatecontrols, carriersfail to identify and deactivateall provider
           numbersbelonging to providers no longer legally authorized to provide servicesin
           the carrier’s jurisdiction. This violates Medicare law which does not allow payment
           to providers not in compliance with local, State,or Federalrequirements.

     l	    Does the weakxess significantly impact on the safeguards against waste, loss,
           unauthotized use offundr, property, or other resources?
           While we were unable to determine a precisefinancial vulnerability, the potential for
           abuseis high. In Florida, from 1980 to 1985,the carrier allowed chargesof over 15
           million dollars for physicians not legally authorized to practice. Carriers do not have
           controls in place to identify loss of legal authorization except for thoseproviders
           excluded from program participation (sanctioned).

     l	    Is the weakness of high political sensitivity such that it would resuLt in embarrassmenr
           to the Department?
           Beneficiaries trust the Medicare program to ensureproviders are in compliance with
           Federal, State,and local rquirements. The HCFA, through carriers, is responsible
           for assuringthis ttust is not betrayed. However, report findings raise concernsthat
           carrier maintenanceactivity doesnot adequatelyscrutinize providers once provider
           numbershave beenissuedto ensurethe provider is still qualified and that payment
           variables are correctly determined. Substanti Medicare paymentsto providers not
           legally authorized to practice would, indeed, be politically sensitive and embarrassing
           to the Department

     l     Is the weakness a crosscutting weakness which indicates major systemic problems?
           Inadequateprovider number maintenanceis a major systemicproblem within
           Medicare. Errors in the provider number affect

                 the ability to detect@ud and abuse, 

                 coverage and pricing of Medicare services, and 

           -     investigations of particular individuais or business.

While this inspection involved only Medicare carriers, the OIG believes vulnerabilities identified
in this report may exist in other programswhich assignprovider numbersto providers
(e.g., Medicaid).
            APPENDIX           C

HEALTH CARE FINANCING ADMINISTRATION COMMENTS




                     C-l
                                                                   MemorG 

F&i 28199l
Gail R Wensky, PbD. e
Administrator

OIG Draft Report -. “Carrier Maintenance of Medicare Provider Numbers,”
OEI-06-89-00870

The Inspector General
office of the Secretary



     We have reviewed the subject draft report which concernsMedicare carriers’
efforts to ensure the accuracyof provider numbers and to identify and restrict
paymentsto providers who have lost their legal authority to practice.
              -
     The report found that some Medicare carriers are not periodically updating
provider records. OIG recommendsthat HCF’A improve the maintenance of
provider numbers by requiring carriers to periodically update provider records, and
suggestsspecific requirements for these updates.

     HCPA acknowledgesthe need for improvement in the instructions given to
Medicare carriers regarding the maintenanceof provider numbers. However, we
believe that this situation clearly does not constitute a material internal control
weakness. Our specific commentson the report’s recommendationsare attached
for your consideration.

    Thank you for the opportunity to review and comment on this draft report.
Pleaseadviseus whether you agree with our position on the report’s
recommendationsat your earliest convenience.


Attachment
                       Commentsof the Health Care Financinp Administration
                     (HCFA\ on the OTG Draft Report - “Carrier Maintenance of
                           Medicare Provider Numbers.” OEI-06-89-00870



         Recommendation 1

         HCFA should require carriers to update provider records periodically.
                                                  .
         Resnonse

         HCFA concurs with this recommendation.
>   .    Recommendation 2

        HCFA should require carriers to deactivate all provider numbers without current
        billing history.

         Resnonse

          HCFA concurs with this recommendation. We propose that this be an annual
          activity. The national start-up cost has been estimated to be approximateiy
          %200,000and the annual cost for all carriers to conduct the purge would be
          approximately %26,ooO.This requirement will be incorporated into the Medicare
        . Carriers Manual. When the funds necessaryto start this project are available,
          HCFA will instruct the carriers to implement this recommendation.

         Recommendation 3

         HCFA should require carriers to establish adequate controls to assurethat
         providers not legally authorized to practice are identified and their provider
         numbers deadted.       As part of these controls, carriers should:
            m	      negotiate with State licensing authorities to obtain license and registration
                    information at a minimum cost to the Medicare program.

                    assessthe feasibility of computer matcheswith State licensing authorities
                    and perform such matches routinely, if practical.

                    maintain the license or certification number of providers in their provider
                    file.
 Page 2
     m	     develop computer data entry edits for license numbers to assure
            uniformity and consistencywith the licensing authority’s method of
            recording license numbers.

 Recommendation5

 HCFA should negotiate with State licensing authorities, that carriers report to be
 uncooperative,to obtain license and registration information at a minimum cost to
 the Medicare program.



 Resnonseto Recommendation3 and 5

 HCF’A does not concur with these recommendations. While the recommendation
 that carriers should use State licensing authorities when verifying the Iicensingstatus
 of providers has merit, we anticipate problems that will preclude its implementation.
 Some States have privacy laws which prohrbit or limit the release of license and
 registration information. Some States do not have automated files, which eliminates
 the possibility of a computer match. Also, there is no legislative authority for
 requiring States to cooperate with a computer match. Any one of these problems
 could severelyrestrict carriers’ successin accessingthe information maintained by
 State authorities.

. 	Our primary concern with the computer match proposal, however, is the return for
   the cost of such an operation. We project costs of over $1 million nationally to
   implement such a data exchangeat all carrier sites and over $250,000annually for
   ongoing activities. The data included in the OIG’s report does not indicate that we
   can expect a significant return on our investment. Becauseof the severebudget
   restrictions under which we operate, we do not believe that this data match wiil be
   cost effective. However, if carriers can establishdata exchangeswith State licensing
   authorities without charge and with minimal administrative costs,we will certainly
   encouragethem.

 We believe that the Unique PhysicianIdentification Number (UPIN) requirements
 firmly establishedboth a means and a HCFA commitment to maintaining accurate
 provider number information. The physicianscovered by the UPIN requirements
 (medical doctors, doctors of osteopathy,dentists, optometrists, chiropractors and
 podiatrists) make up the majority of the Medicare providers subject to license
 requirements. In the future, the UPIN may include additional limited license
 practitioners, such as clinical psychologists,clinical social workers and certified
 registered nurse anesthetists.
Page3
The UPIN processrequires the following from carriers when a LlPIN is established:

   0       verification of State licensure to practice,

   0       verification that a physician is not sanctioned,and

   0       information about prior out-of-State practice, if any.

After establishing a record on the UPIN Registry, which servesas a national
clearinghouse,carriers.receive physician-specificsanction information from the
Registry on a quarterly basis. This data is taken from OIG’s report on Medicare
fraud and abuse and other sanctions. Caniers use this data to ensure that
sanctioned physiciansdo not have active status in the provider Gles.

In addition to the UPIN system,HCFA’s Health Standardsand Quality Bureau
(HSQB) maintains a.certification processwhich requires State licensure for
Medicare participation by ceti   other providers and suppliers. Included in
HSQB’s certification processare physical therapists, occupational therapists,
independent laboratories, ambulatory surgical centers and cardiac rehabilitation   .
centers.

Recommendation 4

HCFA should evaluate provider number controls establishedabove as a part of its
regular carrier Contractor Performance Evaluation Program (CPEP).

Resnonse

HCFA does not concur with this recommendation. With the issuanceof the carrier
manual revision proposed in responseto the second recommendation,the existing
CPEP standard used to measure carrier adherenceto HCFA’s policies will evaluate
compliance with this new requirement. Establishing a specific standard for provider
number control would create problems associatedwith the measurementof a
relatively small area of carrier claims processingresponsibility.  :

Allegation of the   Existence   of a Material Weakness

HCFA does not agree that a material internal control weaknesserdstsin HCFA’s
direction to carriers, or in the provider number carrier controls. This situation
clearly does not meet the Office of Management and Budget’s or the Department’s
definition of a material weakness.
Page 4.

HCFA believes that OIG did not consider the integral part that sanctionsunder
Section 1128(b)(4) of the Social Security Act (the Act) play in maintaining the
integrity of provider numbers.

Traditionally, HCFA’s sanction staff collected information from Medical Licensing
Boards and imposed sanctionsprohibiting those providers who had lost their legal
authority to practice from participating in the Medicare and Medicaid programs
under Section 1128(b)(4) of the Act. Medicare carriers were informed of the
Licensing Board adverseactions during the development of the sanction .case,and
when the sanction itself was imposed. HCFA relied on the sanctionsprocessto
ensure that all Medicare carriers were informed of Medical Licensing Board adverse
actions. However, a number of years ago, HCFA’s Program Integrity function was
transferred permanently to OIG, along with the staff and budget for that function.
Sanctioning of Medicare providers then became the responsibility of OIG. We
believe that a continuation of this effort is essentialin maintaining the integrity of
provider numbers.

OIG’s rationale for determining that a material internal control weaknessexists,
appears to be based on OIG’s findings that HCFA’s carriers are unable to timely .
identify and restrict paymentsto providers who have lost their legal authority to
practice becauseof adverseactions by Medical Licensing Boards. HCFA agrees
this problem exists and believes that the solution to the problem will require more
involvement by OIG’s sanction staff.
